<html>
<title> - H.R. 2010, TO PROTECT THE VOTING RIGHTS OF MEMBERS OF THE ARMED SERVICES IN ELECTIONS FOR THE DELEGATE REPRESENTING AMERICAN SAMOA IN THE UNITED STATES HOUSE OF REPRESENTATIVES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
   H.R. 2010, TO PROTECT THE VOTING RIGHTS OF MEMBERS OF THE ARMED 
SERVICES IN ELECTIONS FOR THE DELEGATE REPRESENTING AMERICAN SAMOA IN 
              THE UNITED STATES HOUSE OF REPRESENTATIVES

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, October 29, 2003

                               __________

                           Serial No. 108-73

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov








                        U.S. GOVERNMENT PRINTING OFFICE

90-110                        WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001

                             



                        COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Wednesday, October 29, 2003......................     1

Statement of Members:
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................     3
        Prepared statement of....................................     5
        Letters and resolution submitted for the record..........    12
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Sunia, Hon. Aitofele, Lieutenant Governor, Pago Pago, 
      American Samoa.............................................     9

Additional materials supplied:
    Fuimaono, Hon. Lutu Tenari S., President of the Senate, 
      Legislature of American Samoa,Letter submitted for the 
      record.....................................................    24
    Radewagen, Amata Coleman, National Committeewoman for 
      American Samoa, letter submitted for the record............    25


   LEGISLATIVE HEARING ON H.R. 2010, TO PROTECT THE VOTING RIGHTS OF 
      MEMBERS OF THE ARMED SERVICES IN ELECTIONS FOR THE DELEGATE 
       REPRESENTING AMERICAN SAMOA IN THE UNITED STATES HOUSE OF 
                REPRESENTATIVES, AND FOR OTHER PURPOSES.

                              ----------                              


                      Wednesday, October 29, 2003

                     U.S. House of Representatives

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 2:10 p.m., in Room 
1324, Longworth House Office Building, Hon. Richard W. Pombo 
[Chairman of the Committee] presiding.
    Present: Representatives Pombo, Rehberg, Faleomavaega, 
Inslee, Tom Udall of New Mexico, Grijalva, and Bordallo.

 STATEMENT OF THE HONORABLE RICHARD W. POMBO, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. The Committee on Resources will come to 
order. The Committee is meeting today to hear testimony on H.R. 
2010, a bill to protect the voting rights of members of the 
Armed Services in elections for the Delegate representing 
American Samoa in the U.S. House of Representatives, and for 
other purposes.
    Under Rule 4(g) of the Committee rules, any oral opening 
statements at hearings are limited to the Chairman and Ranking 
Minority Member. This will allow us to hear from our witness 
sooner and help members to keep to their schedules. Therefore, 
if other members have statements, they can be included in the 
hearing record under unanimous consent.
    On behalf of the full Committee, I would like to welcome 
everyone in attendance today, and specifically our witness. We 
are fortunate to have with us today an individual from American 
Samoa who should be able to better inform us about their 
election laws and his thoughts on the effects of enacting H.R. 
2010.
    Our full Committee hearing today will focus on legislation 
introduced by my colleague from American Samoa, Mr. 
Faleomavaega, who has worked on crafting this legislation for 
years. We will hopefully be able to directly address the two 
related issues that the bill presents: an interest in 
protecting the voting rights of members of the Armed Services, 
as well as making the Delegate representing American Samoa be 
subject to an election by a plurality vote.
    When discussing the issue of voting rights of the members 
of our Armed Services, the war in Iraq presents us with a good 
example. Thousands of men and women are in the Middle East and 
across the globe protecting our country from further attack 
while encouraging the new-found freedom of others. Congress has 
recognized the importance of ensuring their right to vote, even 
when on active duty in foreign countries, when it passed the 
Uniformed and Overseas Citizen Absentee Voting Act in 1986. 
Specifically this legislation requires that the States and 
territories allow certain groups of citizens, including members 
of the United States uniformed services, to register and vote 
absentee in elections for Federal offices.
    Further, under an executive order from 1988, the 
Presidential designee for the administrative responsibilities 
associated with the legislation is the Secretary of Defense. In 
turn, the Secretary of Defense has assigned the work of 
protecting the right to vote by these soldiers to the Federal 
Voting Assistance Program. The FVAP actively monitors the voter 
registration and absentee voting opportunities provided to the 
members of the Armed Services. The issue at hand today, though, 
is in part how effective this Act is applied to American Samoa.
    In 2001 the General Accounting Office released a report 
saying that the voting assistance to military and overseas 
citizens should be improved. Our hearing today will hopefully 
shed some light on the effectiveness of the current law for 
those members of the Armed Services from American Samoa and how 
can it can be changed if necessary. We must also remember the 
extent of the current powers offered under the existing law.
    At this time under section 105 of the Uniformed and 
Overseas Citizens Absentee Voting Act, the Attorney General is 
authorized to bring civil actions to enforce the law. This 
typically occurs when the FVAP notifies the Department of 
Justice that there is a risk that some overseas voters may not 
have time to return their ballots in the time allotted by the 
State or the territory.
    Even as recently as last year, two more cases were decided 
where it was discovered the local laws were prohibiting people 
from exercising their right to vote.
    H.R. 2010 also makes a change in current law to provide for 
the election of the Delegate by a plurality vote instead of a 
majority vote in runoff elections that take place quite often. 
I am hopeful that our witness today can inform the Committee of 
the structure of the elections in American Samoa, with the 
understanding that the election for the Delegate is written in 
Federal law.
    Further, any potential change as provided for in Mr. 
Faleomavaega's bill that is in part subject to decisions made 
at the local level is an issue that should be examined.
    I thank the Lieutenant Governor for flying across numerous 
time zones to be with us today in Washington, D.C., and look 
forward to his testimony.
    [The prepared statement of Mr. Pombo follows:]

        Statement of The Honorable Richard W. Pombo, Chairman, 
                         Committee on Resources

    The hearing will come to order. Good morning.
    On behalf of the full Committee, I would like to welcome everyone 
in attendance today and, specifically, our witness. We are fortunate to 
have with us today an individual from American Samoa, who should be 
able to better inform us about their election laws and his thoughts on 
the effects of enacting H.R. 2010.
    Our full Committee hearing today will focus on the legislation 
introduced by my colleague from American Samoa, Mr. Faleomavaega, who 
has worked on crafting this legislation for years. We will hopefully be 
able to directly address the two related issues that the bill presents; 
an interest in protecting the voting rights of members of the Armed 
Services as well as making the Delegate representing American Samoa be 
subject to an election by a plurality vote.
    When discussing the issue of voting rights of the members of our 
Armed Services, the war in Iraq presents us with a good example. 
Thousands of men and women are in the Middle East and across the globe 
protecting our country from further attack, while encouraging the 
newfound freedoms of others. Congress has recognized the importance of 
ensuring their right to vote even when on active duty in foreign 
countries when it passed the Uniformed and Overseas Citizen Absentee 
Voting Act in 1986.
    Specifically, this legislation requires that the states and 
territories allow certain groups of citizens, including members of the 
United States Uniformed Services, to register and vote absentee in 
elections for Federal offices.
    Further, under an Executive Order from 1988, the presidential 
designee for the administrative responsibilities associated with the 
legislation is the Secretary of Defense. In turn, the Secretary of 
Defense has assigned the work of protecting the right to vote by these 
soldiers to the Federal Voting Assistance Program (FVAP). The FVAP 
actively monitors the voter registration and absentee voting 
opportunities provided to members of the Armed Services.
    The issue at hand today, though, is, in part, how effective this 
Act is applied to American Samoa. In 2001, the General Accounting 
Office released a report stating that the ``voting assistance to 
military and overseas citizens should be improved.''
    Our hearing today will hopefully shed some light on the 
effectiveness of the current law for those members of the Armed 
Services from American Samoa, and how it can be changed if necessary.
    We must also remember the extent of the current powers offered 
under existing law. At this time, under Section 105 of the Uniformed 
and Overseas Citizens Absentee Voting Act, the Attorney General is 
authorized to bring civil actions to enforce the law. This typically 
occurs when the FVAP notifies the Department of Justice that there is a 
risk that some overseas voters may not have time to return their 
ballots in the time allotted by the State or Territory.
    Even as recently as last year, two more cases were decided where it 
was discovered the local laws were prohibiting people from exercising 
their right to vote.
    H.R. 2010 also makes a change in current law to provide for the 
election of the Delegate by a plurality vote instead of a majority vote 
and runoff elections that take place quite often.
    I am hopeful that our witness today can inform the Committee of the 
structure of elections in American Samoa, with the understanding that 
the election for the Delegate is written in Federal law. Further, any 
potential change as provided for in Mr. Faleomavaega's bill that is, in 
part, subject to decisions made at the local level is an issue that 
should be examined.
    I thank the Lieutenant Governor for flying across numerous time 
zones to be with us today in Washington, D.C., and look forward to his 
testimony.
                                 ______
                                 
    The Chairman. At this time, I'd like to recognize Mr. 
Faleomavaega.

STATEMENT OF THE HONORABLE ENI F.H. FALEOMAVAEGA, A DELEGATE IN 
                  CONGRESS FROM AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. And I also would 
like to offer my personal welcome of the distinguished 
Lieutenant Governor of American Samoa, Mr. Aitofele Sunia, and 
certainly I am very, very appreciative of his taking the time 
to travel all the way here to Washington to be a witness for 
this hearing this afternoon.
    Mr. Chairman, I want to personally thank you and also our 
senior Ranking Member, Mr. Rahall, for holding a hearing on 
H.R. 2010, a bill I introduced after consultation with local 
leaders to protect the voting rights of active duty members 
whose home or residence is American Samoa.
    As you know, this matter is not new to the people or the 
Legislature of American Samoa. The truth is that this matter 
has been before the people and our local leaders for the past 5 
years now. Since 1998, I have written to our Governors, past 
and present. I have written and testified before our local 
legislature. And I would like to ask that the copies of my 
testimony, my letters, and local responses be made part of the 
record.
    The Chairman. Without objection.
    Mr. Faleomavaega. I have also brought this matter to the 
attention of my constituents through press releases, 
newsletters, radio and television programs. In fact two years 
ago, I conducted a congressional survey, and approximately 85 
percent of those surveyed agree that American Samoa's active 
duty members in the service, in the military, should be 
afforded the same rights and privileges as every other American 
serving in the U.S. Armed Forces.
    Unfortunately, American Samoa's military men and women have 
been disenfranchised, in my opinion, from the political process 
and have been denied the right to vote in Federal elections 
held in the territory. In part, this has been due to two 
complications. One, American Samoa law has until recently 
required uniformed and overseas voters to register in person, 
and this has been contrary to the Uniformed and Overseas 
Citizenship Voting Act of 1975.
    While I am pleased that as of last year our legislature has 
addressed the registration process to make it easier for 
military members to register for local and Federal elections, 
our uniformed and overseas voters have also been denied their 
right to vote as a result of a public law that was passed in 
1978 by the Congress. This public law provides that the 
Territory of American Samoa is to be represented by a nonvoting 
Delegate to the U.S. House of Representatives and mandates that 
if no candidate receives a majority of the votes cast, that on 
the 14th day--that is, two weeks after the first election--that 
such a runoff election shall then be held between the 
candidates receiving the highest and the second highest number 
of votes cast.
    Like the Governor of American Samoa, The Honorable 
Tulafono, I believe that this 1978 Federal law requiring a 
runoff election to be held only 14 days after the general 
election creates, as Governor Tulafono says, and I quote, a 
situation where it is virtually impossible for the American 
Samoan Election Office to send out absentee ballots to the men 
and women in the military and expect to receive them back in 
time for those votes to be counted in runoff elections. This is 
especially also true with the college students.
    Given that our mail is delayed and our air service limited 
to two flights a week, the Governor and I agree that some 
measure should be put in place to assure that the voters--the 
votes of our military men and women are counted and that this 
injustice be corrected.
    Actually, Mr. Chairman, in 1977 I worked on the legislation 
which the late Congressman Phil Burton introduced to provide 
that the Territory of American Samoa be represented by a 
nonvoting Delegate to the U.S. House of Representatives. As a 
young Hill staffer then for Congressman Burton, I was 
instructed to draft legislation to provide for the election 
also of American Samoa's Governor as well as the Delegate. The 
law that governed this election and the operation of his office 
were as a result of a bill that was passed by the Fono, and I 
am referring specifically to the Office of the Governor.
    It should also be noted that at that time the appointed 
Governor, whose name was Owen Aspinall, signed a bill into law 
despite U.S. Department of the Interior's opposition to having 
American Samoa be represented here in the U.S. House of 
Representatives. In fact, Governor Aspinall signed the bill as 
a way to get back at the Department of the Interior for not 
extending his term as Governor.
    While this bill allowed for the local representative in 
Washington, it did not provide for a representative to the U.S. 
Congress, because the Fono and the local government had no 
authority to enact Federal legislation. And this is the reason 
why the Paramount Chief Tui Manu'a and High Chief Lutali, 
although they served as delegates representing the territory of 
Washington, but they were never officially members of the U.S. 
House of Representatives--in fact, it was High Talking Chief 
Fiti Sunia that was duly the first elected Congressman 
representing American Samoa in 1980.
    I want to say that in the interest of time I want the full 
substance of my statement to be made part of the record, Mr. 
Chairman.
    I would like to say that H.R. 2010 is a historic bill. It 
is a bill that immediately restores the voting rights of our 
military men and women as well as college students from 
American Samoa. It is also a bill that makes clear in no 
uncertain terms that the legislature is vested with the 
authority it needs that for some time in the future it wants to 
hold primary elections, it can pass local law to provide for 
that.
    H.R. 2010 also protects American Samoa's future in the U.S. 
Congress. Without 2010, future delegates could miss out on key 
committee assignments and could be ranked more junior as a 
result of delayed outcomes of runoff elections. And like 
Governor Tulafono, I do not believe that American Samoa's 
future should be weakened or disadvantaged. And this is one 
more reason why I appreciate the Governor's support of H.R. 
2010.
    And, again, Mr. Chairman, I thank you for the hearing, and 
I look forward to hearing from our Lieutenant Governor.
    The Chairman. Thank you.
    [The prepared statement of Mr. Faleomavaega follows:]

    Statement of The Honorable Eni F.H. Faleomavaega, a Delegate in 
                      Congress from American Samoa

    Mr. Chairman, I want to personally thank you and Congressman Rahall 
for holding a hearing on H.R. 2010, a bill I introduced after 
consultations with local leaders to protect the voting rights of active 
duty service members whose home of residence is American Samoa.
    As you know, this matter is not new to the people or the 
legislature of American Samoa. The truth is this matter has been before 
the people and our local leaders for the past five years. Since 1998, I 
have written to our Governors, past and present. I have written and 
testified before our local Legislature, or FONO, and I would like to 
ask that copies of my testimony, my letters, and local responses be 
made part of this record.
    I have also brought this matter to the attention of my constituents 
through press releases, newsletters, radio and tv programs. In 2001, I 
conducted a Congressional survey and 85% of those surveyed agreed that 
American Samoa's active duty service members should be afforded the 
same rights and privileges as every other American serving in the U.S. 
Armed Forces.
    Unfortunately, American Samoa's military men and women have been 
disenfranchised from the political process and have been denied the 
right to vote in federal elections held in the Territory. In part, this 
has been due to two complications. One, American Samoa law has until 
recently required uniformed and overseas voters to register to vote in 
person and this has been contrary to the Uniformed and Overseas 
Citizens Voting Act of 1975.
    While I am pleased that as of 2002 our legislature has addressed 
the registration process to make it easier for military members to 
register for local and federal elections, our uniformed and overseas 
voters have also been denied the right to vote as a result of Public 
Law 95-556 passed on October 31, 1978. Federal, or PL 95-556, provides 
for the Territory of American Samoa to be represented by a nonvoting 
Delegate to the United States House of Representatives and mandates 
that if no candidate receives a majority of the votes cast, on the 
fourteenth day following such election, a runoff election shall be held 
between the candidates receiving the highest and second highest number 
of votes cast.
    Like the Governor of American Samoa, The Honorable Togiola T.A. 
Tulafono, I believe this 1978 federal law requiring a runoff election 
to be held only 14 days after the general election creates, as Governor 
Togiola says, ``a situation where it is virtually impossible for 
American Samoa's Election Office to send out absentee ballots to the 
men and women in the military and expect to receive them back in time 
for those votes to be counted in a run-off election.'' Given that our 
mail is delayed and our air service is limited to two flights a week, 
the Governor and I agree that some measure should be put in place to 
assure that the votes of our military men and women are counted and 
that this injustice is corrected.
    During the 107th Congress, I introduced H.R. 3576, a bill to 
establish primary elections and which also made sure that the Delegate 
was elected by a majority of the votes cast. When introducing this 
bill, I pointed out that both Guam and the Virgin Islands were once 
bound by the two week federal runoff requirement but established 
primary elections to resolve similar problems. Notwithstanding, the 
American Samoa Government (ASG) chose not to support this bill due to 
the cost of primary elections.
    Given ASG's financial difficulties and out of respect for its 
concerns, I introduced H.R. 4838 which called for voting by plurality 
in lieu of primary elections. As I explained when introducing H.R. 
4838, 49 of the 50 states use plurality voting to elect their 
Representatives to Congress. The counties of Tualauta and Itu'au in 
American Samoa also elect their representatives by plurality vote. 
Plurality voting minimizes costs to the local government and also 
provides active duty service members and other overseas voters with an 
opportunity to participate fully in the federal election process. 
Despite these considerations, ASG chose not to support this bill either 
and the previous and late Governor Tauese P.F. Sunia said that he 
believed ``the intent of Congress when they established majority vote 
was to ensure a strong mandate for American Samoa's Delegate.''
    Actually, in 1977, I worked on the legislation which Congressman 
Phil Burton introduced to provide that the Territory of American Samoa 
be represented by a nonvoting Delegate to the U.S. House of 
Representatives. As a young Hill staffer working for Congressman Burton 
on the Committee on Interior and Insular Affairs, I also worked on the 
legislation to provide for the election of American Samoa's Governor 
and I would like to include it should be noted that in 1970 when 
American Samoa first elected a delegate at large to serve as the 
government's special representative to Washington, the law that 
governed his election and the operations of his office were as a result 
of a bill that was passed by the Fono.
    Appointed Governor Owen Aspinall signed the bill into law despite 
the U.S. Department of the Interior's (DOI) opposition to American 
Samoa having an elected delegate. In fact, Governor Aspinall signed the 
bill as a way to get back at the DOI for not extending his term as 
Governor. While this bill allowed for a local representative to 
Washington, it did not provide for a representative to the U.S. 
Congress because the Fono and Governor Aspinall had no authority to 
enact federal legislation. This is why PC Fuimaono and HC Lutali never 
actually became official delegates to the U.S. Congress. American 
Samoa's first Congressional Delegate was HTC Fofo Sunia who was elected 
in 1980 after Congress enacted legislation to provide that the 
Territory be represented by a nonvoting Delegate to the United States 
House of Representatives.
    To be clear about this, I would like to provide this Committee with 
a legal history of how election law was determined for American Samoa. 
In 1951, President Harry S. Truman issued Executive Order 10264 which 
transferred administrative responsibility for the islands of American 
Samoa from the Secretary of the Navy to the U.S. Secretary of the 
Interior. The Secretary of the Interior, in turn, appointed our 
Governors.
    In 1960, the people of American Samoa adopted a Constitution. The 
Constitution was revised in 1966 and was approved by the Secretary of 
the Interior on June 2, 1967. In 1967, the Revised Constitution of 
American Samoa provided for an elected Legislature, or Fono, consisting 
of a Senate and a House of Representatives. However, it did not provide 
our people with the right to elect our own Governor and Lieutenant 
Governor and, at the time, American Samoa was the only remaining off-
shore area of the United States which did not have a popularly elected 
Governor and Lieutenant Governor.
    On June 10, 1976, Congressman Phil Burton took notice of American 
Samoa's situation and introduced a bill to make it possible for our 
Governor and Lieutenant Governor to be popularly elected rather than 
appointed by the Secretary of the Interior. As staff counsel the 
Committee on Interior and Insular Affairs, Congressman Burton 
instructed me to draft this legislation which the U.S. House of 
Representatives overwhelmingly passed by a landslide vote of 377 to 1.
    Instead of sending his bill to the Senate, Congressman Burton 
decided to consult further with the Secretary of the Interior, Rogers 
C.B. Morton, about American Samoa's unique political status as an 
unincorporated and unorganized territory which was and is unlike the 
organized territories of Guam and the Virgin Islands. As a result of 
their consultations, the two agreed that Secretary Morton would issue a 
Secretarial Order (No. 3009) authorizing the American Samoa Government 
to pass enabling legislation to provide for an elected Governor and the 
Lieutenant Governor.
    Secretary's Order No. 3009 amended American Samoa's Constitution to 
specifically provide for an elected rather than an appointed Governor 
and Lieutenant Governor. Secretary's Order 3009 was also in keeping 
with the will of the majority of voters in American Samoa who voted in 
favor of electing their own Governor and Lieutenant Governor in a 
plebiscite that was held on August 31, 1976.
    Furthermore, Congressman Phil Burton introduced legislation on 
August 2, 1978, to provide that the Territory of American Samoa be 
represented by a nonvoting Delegate to the U.S. House of 
Representatives. I also was tasked with drafting this legislation which 
became Public Law 95-556 and was made effective October 31, 1978.
    I can assure you that in the case of the Delegate, American Samoa's 
federal election laws were patterned after those of the Virgin Islands 
and Guam. At the time, consideration was not given to whether or not 
majority or plurality voting should be established for American Samoa. 
Congress simply enacted legislation to provide American Samoa with 
representation in the U.S. Congress and we could not foresee some 25 
years ago that American Samoa's men and women would serve in record 
numbers in the U.S. Armed Forces which consequently made it impossible 
for them to participate in runoff elections held two weeks after 
general elections.
    Today, we are keenly aware that this requirement to hold a runoff 
election 14 days after the general election is outdated, unreasonable 
and unjust. To right this wrong and after further consultations with 
our local leaders, I introduced H.R. 2010 which includes the 
suggestions of Governor Togiola. In a letter dated September 11, 2003, 
Governor Togiola informed me that he had reviewed the copy of H.R. 2010 
that I sent to him and that he was satisfied that this bill will 
provide an immediate solution to address the concerns we have regarding 
the voting rights of our men and women in the military services. In a 
letter dated September 15, 2003, I thanked Governor Togiola for his 
support and I would like to ask that our letters be made part of the 
record.
    Although we have had some differences regarding this issue, 
Governor Togiola and I have always agreed that our military men and 
women should have the right to vote especially when they contribute 
almost a million dollars per year in taxes to our local government. I 
am pleased that Governor Togiola is now happy with this bill and I 
again commend him for supporting its passage.
    I also want to thank the President of the American Samoa Senate, 
The Honorable Lutu Tenari S. Fuimaono, for his support. In a letter 
dated October 28, 2003, President Fuimaono stated that he fully 
supports H.R. 2010 and that he wishes Chairman Pombo the best of luck 
in moving forward on the bill. I would like to ask that his letter also 
be included as part of the record.
    Finally, I would like to say that H.R. 2010 is an historic bill. It 
is a bill that immediately restores the voting rights of our military 
men and women. It is also a bill that makes clear in no uncertain terms 
that FONO is vested with the authority it needs to establish primary 
elections for the office of the Delegate, if it so chooses. H.R. 2010 
also protects American Samoa's future in the U.S. Congress. Without 
H.R. 2010, future Delegates could miss out on key committee assignments 
and could be ranked more junior as a result of delayed outcomes and 
run-off elections. Like Governor Togiola, I do not believe American 
Samoa's future should be weakened or disadvantaged and this is one more 
reason I appreciate his support of H.R. 2010.
    Given the importance and urgency of this bill, I am hopeful that 
members of this Committee will also work for the successful passage of 
H.R. 2010. H.R. 2010 is the right thing to do and, as a Vietnam 
veteran, I will not rest until we fully guarantee that our active duty 
service members have the right to vote in federal elections held in 
American Samoa. To alleviate any concerns that I will personally 
benefit from this legislation, I would like the Chairman, the Ranking 
Member, and Members of the Committee to know that I intend to introduce 
an amendment in the nature of a substitute for purposes of changing the 
effective date of this bill from January 2004 to January 2006. If 
supported, any change in law will not go into effect until the 2006 
election cycle and the 2004 election requirements will remain as is.
    While I am aware that some members of the FONO continue to have 
disagreements with this legislation, I respect their opinions and I 
thank them for their efforts to address this issue locally. However, 
only Congress can vest the American Samoa Legislature with the 
authority it needs to establish primary elections.
    As I have repeatedly stated, H.R. 2010 in no way affects how the 
American Samoa Government chooses to elect its local leaders and, 
having made every change requested of me by our local leaders and after 
years of good-faith efforts on my part, I believe the time has come to 
put aside our differences and do right by our men and women in the 
military. Our sons and daughters have fought and died to preserve our 
freedoms and I will do everything in my power to protect their right to 
vote. I urge your support of H.R. 2010 and I thank you again for 
holding this hearing.
    [NOTE: The attachments listed below submitted for the record by Mr. 
Faleomavaega have been retained in the Committee's official files.]
                              ATTACHMENTS
    04/05/00-- Faleomavaega to ASG Governor Sunia, Lieutenant Governor, 
President of the Senate and Senators, Speaker of the House and 
Representatives, Attorney General
    11/20/01-- Faleomavaega to ASG Governor Sunia, Lieutenant Governor, 
President of the Senate and Senators, Speaker of the House and 
Representatives
    12/20/01-- Faleomavaega to ASG Governor Sunia, Lieutenant Governor, 
President of the Senate and Senators, Speaker of the House and 
Representatives
    01/02/02-- Governor Tauese Sunia to Faleomavaega, ASG Lieutenant 
Governor, President of the Senate and Senators, Speaker of the House 
and Representatives, Chief Election Officer
    01/28/02-- ASG Speaker of the House to Faleomavaega, ASG Governor, 
Election Office, President of the Senate
    02/27/02-- Faleomavaega to ASG Speaker of the House
    03/05/02-- Faleomavaega to ASG Senate President and Senators
    05/23/02-- Faleomavaega to ASG Governor Sunia, Lieutenant Governor, 
President of the Senate and Senators, Speaker of the House and 
Representatives
    07/10/02-- ASG President Pro Tem and Speaker of the House to The 
Honorable James Hansen, Chairman of U.S. House Committee on Resources, 
ASG Governor Tauese Sunia, Senators, Representatives, Chief Election 
Office, The Honorable Nick Rahall (Ranking Member of the U.S. House 
Committee on Resources), Congressman Eni Faleomavaega, Members of the 
U.S. House Committee on Resources
    07/11/03-- Governor Tauese Sunia to Faleomavaega, Chairman of the 
U.S. House Committee on Resources, ASG President of the Senate and 
Senators, Speaker of the House and Representatives, Chief Election 
Officer
    07/15/02-- Faleomavaega to The Honorable Nick Rahall, Ranking 
Member, U.S. House Committee on Resources
    07/15/02-- Faleomavaega to The Honorable James Hansen, Chairman, 
U.S. House Committee on Resources
    07/23/02-- Faleomavaega to ASG Governor Sunia, Chairman and Ranking 
Member of the U.S. House Committee on Resources, Deputy Assistant 
Secretary of the U.S. Department of the Interior, ASG Lieutenant 
Governor, President of the Senate and Senators, Speaker of the House 
and Representatives, Chief Election Officer
    07/23/02-- Faleomavaega to The Honorable James Hansen, Chairman, 
U.S. House Committee on Resources
    07/23/02-- Faleomavaega to The Honorable Nick Rahall, Ranking 
Member of the U.S. House Committee on Resources
    09/05/02-- Faleomavaega to ASG Governor Tauese Sunia
    09/05/02-- Faleomavaega to ASG President of the Senate and Senators
    09/05/02-- Faleomavaega to ASG Speaker of the House and 
Representatives
    09/12/02-- Faleomavaega Statement before the American Samoa 
Legislature
    05/07/03-- Faleomavaega to ASG Governor Togiola Tulafono, 
Lieutenant Governor, President of the Senate and Senators, Speaker of 
the House and Representatives
    09/05/03-- Senator Te'o J. Fuavai to Faleomavaega
    09/11/03-- ASG Governor Togiola Tulafono to Faleomavaega, ASG 
Lieutenant Governor, President of the Senate and Senators, Speaker of 
the House and Representatives
    09/15/03-- Faleomavaega to ASG Governor Togiola Tulafono, 
Lieutenant Governor, President of the Senate and Senators, Speaker of 
the House and Representatives
    09/19/03-- Senate Resolution
    10/16/03-- Faleomavaega to Senator Te'o J. Fuavai
    10/27/03-- President of ASG Senate, Lutu Fuiamono, to Faleomavaega.
    10/28/03-- Office of the Governor to Lieutenant Governor, Aitofele 
T.F. Sunia.
    07/21/76-- Congressional Record, Providing for an Elective Governor 
and Lieutenant Governor of American Samoa
    10/03/78-- Congressional Record, Providing the Territory of 
American Samoa with a Nonvoting Delegate
                                 ______
                                 
    The Chairman. I would like to now introduce our witness for 
today's hearing. I would like to welcome Lieutenant Governor 
Aitofele Sunia who has taken it upon himself to travel to 
Washington today from American Samoa. I know it is more than a 
hop, skip and a jump for you to get all the way here, and I 
really appreciate you making the effort.
    Before you begin your testimony, I wish to continue my 
customary practice of swearing in all the witnesses as provided 
under rule 4(f). If I could have you stand and raise your right 
hand.
    [Witness sworn.]
    The Chairman. The record will show that you answered in the 
affirmative.
    Thank you very much. Welcome to the Committee. If you are 
ready, you can begin.

       STATEMENT OF AITOFELE SUNIA, LIEUTENANT GOVERNOR, 
                   PAGO PAGO, AMERICAN SAMOA

    Mr. Sunia. Thank you, Mr. Chairman, and honorable members 
of the Committee. Good afternoon and talofa. It is indeed my 
pleasure and honor to appear before your honorable Committee 
this afternoon. I had traveled here to present to you, sir, and 
your Committee, members of your Committee, a written statement 
of the Governor's position in support of this legislative 
measure and also to appear in person to respond to any 
questions that you may have. Hopefully I can answer them for 
you should there be any questions that Mr. Chairman and members 
of the Committee wish to address on this issue.
    Basically it is a very simple matter. It is a matter of 
extending or providing the mechanics or vehicle so that our men 
and women in uniform and college students can exercise their 
constitutional right to vote. Without this measure, they had 
been denied this right to cast their votes for the seat to the 
U.S. Congress, and I believe that this measure will enable them 
to exercise this right. And I don't have to emphasize how 
important the right is, but I believe it is to them.
    And the way that our elections are set up, this runoff two 
weeks after the general election in reality does not afford the 
opportunity for these people to cast their votes, because by 
the time the airplane gets back to us two weeks later--they 
only fly down there twice a week--and by the time the airplane 
gets down there with those ballots, the votes have already been 
counted, and they are counted out, not in. And that is not 
fair.
    And that is basically why I am here, Mr. Chairman, and 
members of the Committee. It is as simple as that. If there are 
further questions on it, I hope I will be able to respond. 
Thank you very much.
    The Chairman. Thank you, sir.
    The Chairman. In terms of the plurality voting, I know that 
there are a number of States that have plurality voting and 
runoff elections. Can you explain to the Committee why that has 
proven to be a problem in Samoa?
    Mr. Sunia. Well, I am not sure if it is a problem, sir. Our 
local legislature is elected by plurality. This is one of the 
English words I have a hard time pronouncing. Plurality.
    The Chairman. I have a hard time with it, too, so don't 
feel bad.
    Mr. Sunia. And that is how we elect all members to our 
local legislature, by plurality. And when it was originally set 
up for the election of our Delegate to Congress--I apologize, 
but I don't know why it was set up the way it is. Maybe the 
Congressmen can enlighten the Committee on that.
    But as to your question, as to the two methods of 
elections, there is no--there is really no problem. We're happy 
with the way the local members of the local legislature are 
elected, and that is plurality. There are no qualms with that, 
that I know of.
    The Chairman. Now I will ask my colleague if he could 
respond to that.
    Mr. Faleomavaega. If the Chairman will yield, the situation 
in providing for the election of the Delegate of American 
Samoa; as the bill was introduced in 1978 here in the Congress, 
we just simply patterned the same provisions as that of 
electing the Delegates from Guam to the Virgin Islands, which 
was 10 years before that. I think the first elected delegates 
from Guam and the Virgin Islands was in 1970. And what that did 
was just simply provided that if there was no majority--
specifically, this is how the law was written. If no majority 
is provided under the first round of the election, then a 
runoff election is to be held two weeks thereafter.
    I tried, as much as I could, to find the legislative 
history how or who the authors were of this Federal legislation 
that provided for this requirement, that two weeks was all that 
was sufficient to provide for the runoff election. I suppose 30 
years ago, or 40 years ago, the presumption being that the 
majority of the voters were still on an island like Guam or the 
Virgin Islands and that there was never really any serious 
consideration about those who served in the military and 
students who left. And now in the years pursuing, how Guam and 
the Virgin Islands have elected their Delegates, they went 
ahead and initiated the primary process for--which then allows 
this majority requirement still in place for Guam and the 
Virgin Islands. Unfortunately with us, we still have this 
provision there that requires that there is to be a runoff in 
two weeks. And probably the worst place to have mailings and 
letters and things of the sort to be provided, it takes a week 
just to prepare the ballots for the runoff, and then by the 
time the ballots are sent off island, the election is over. So 
I think this is how the situation evolved with our election in 
the territory.
    The question of plurality was raised as to where does it 
say in the Constitution or whether by Federal law that you have 
to have a majority vote in order to legitimize an election? And 
as much as I could remember, at least in reading the 
legislative history, there is no constitutional requirement 
that a person elected to the U.S. House of Representatives has 
to be elected by a majority vote.
    The fact is I recall--
    The Chairman. There's not. In California you can win with a 
plurality vote, and it is whoever has the most votes on 
Election Day wins.
    Mr. Faleomavaega. Right. In fact, my recollection, I think 
49 out of 50 States do elect their Members in the House by 
plurality. So this was the reason why I felt that the election 
of a Delegate is in compliance with not only the constitutional 
requirements but the fact that 48 other States also have the 
same requirements.
    The problem that comes into play is when you have four or 
five candidates running--and I have tried earnestly to find out 
really if there was some Federal provision or constitutional 
mandate that a federally elected person to the House of 
Representatives has to be by majority, and I did not find any 
provision anywhere that Members of the U.S. House of 
Representatives have to be elected by a majority vote.
    I did add a provision in the bill, Mr. Chairman, to the 
effect that if at some point in time in the future our local 
government or the legislature should decide to hold primary 
elections, that authorization is provided for in the bill--and 
this is one critical factor that the Governor has lent his 
support--that the fact that our local government is given that 
prerogative if it should decide to do so sometime in the 
future.
    The reason why they did not want a primary is they say it 
is too expensive. So the rights of our men and women in the 
military to vote versus too expensive, I find it difficult 
sometimes to make that as a valid reason for not having 
primaries; but here again, that is what they've chosen to do, 
and I believe that the proposed bill will accommodate that need 
if at sometime in the future the legislature and the local 
administration will want to have primaries.
    The Chairman. I am going to go ahead and recognize Mr. 
Faleomavaega if he has any questions to the Lieutenant 
Governor.
    Mr. Faleomavaega. I do not have any questions for the 
Lieutenant Governor other than to thank him for making such a 
long trip to come before our Committee hearing, Mr. Chairman.
    I would like to ask unanimous consent that the--one of our 
senators, local senators, had expressed his objection to the 
proposed bill, and I'd like to ask unanimous consent that his 
letter and the resolution that was passed be made a part of the 
record, and also the letter that I had written to Senator Te'o 
also be made a part of the record.
    The Chairman. Without objection.

    [The letters and resolution follow:]
    [GRAPHIC] [TIFF OMITTED] 90110.004
    
    [GRAPHIC] [TIFF OMITTED] 90110.005
    
    [GRAPHIC] [TIFF OMITTED] 90110.006
    
    [GRAPHIC] [TIFF OMITTED] 90110.008
    
    [GRAPHIC] [TIFF OMITTED] 90110.009
    
    [GRAPHIC] [TIFF OMITTED] 90110.010
    
    [GRAPHIC] [TIFF OMITTED] 90110.011
    

    The Chairman. Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Chairman. And real quickly, I 
want to thank Mr. Faleomavaega and the Lieutenant Governor for 
their kind hospitality when I was in Samoa a year ago in the 
heart of the election, and I can tell you it was a mess. If I 
remember correctly, the year plurality was, what, 6- or 9,000 
votes in the final analysis? And that was a lot of heartache 
and a lot of controversy over so resounding a victory, and it 
just--it seems to be a problem that should not exist.
    And I am here to lend my support and I will continue to 
support it if you don't give me any more tuna. Jeff Flake asked 
me today if I was still eating tuna, and I said, yes, I was, 
and he is too. Glad to do it. Just no more tuna fish.
    Mr. Faleomavaega. I thank my good friend from Montana for 
his support of the bill. Appreciate it.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman, and 
Congressman Faleomavaega. Talofa. Welcome, Lieutenant Governor 
Sunia. And before I begin, I have a couple of questions here. I 
would like to extend the condolences from the people of Guam to 
the people of Samoa on the passing of Governor Sunia. I 
remember being with the Governor and the First Lady on their 
last visit to Washington, and we're certainly very sorry about 
that.
    And I want to thank you, Lieutenant Governor Sunia, for 
traveling all those many thousands of miles to be here, but I'd 
also like to remind the Chairman that Guam is many more 
thousands of miles away, just so we remember. And we're looking 
forward, Mr. Chairman, for your trip in January to American 
Samoa and to Guam and I think to Australia. Is that right?
    The Chairman. Yeah. At least those two.
    Ms. Bordallo. Lieutenant Governor, can you share with us 
your views on whether U.S. law currently provides American 
Samoa adequate authority to authorize and provide for a primary 
election for the office of Delegate?
    Mr. Sunia. As I understand it--thank you, Madam Member of 
the Committee--the election of a Delegate to the U.S. Congress 
is provided for by Federal law, and if I understand your 
question correctly, as to whether or not present law is--
    Ms. Bordallo. Local law.
    Mr. Sunia. Local law?
    Ms. Bordallo. Local law for a primary election.
    Mr. Sunia. For a Delegate to Congress?
    Ms. Bordallo. Or the U.S. law provides for a primary 
election.
    Mr. Sunia. We look to you as law to provide for this for 
this particular election. Our own local elections for 
gubernatorial and the local legislature is provided for by our 
local law, but the election of the Delegate to the U.S. 
Congress, we abide by Federal law. It supersedes our local law. 
Maybe the Congressman can enlighten.
    Mr. Faleomavaega. Will the gentlelady yield?
    Ms. Bordallo. Yes.
    Mr. Faleomavaega. I think there's a little complication 
here to understand that when we first--the first Delegates that 
we elected to Washington in 1970 came about because of the 
local laws that we passed to provide for it, and this is the 
same thing with Guam. You pass local law to provide for that. 
Over the years, there has been a lot of misunderstanding, 
thinking that this is the same laws that govern the current 
Delegate position, and I've had to explain to the people that 
the only reason why we have a Delegate here in the U.S. House 
of Representatives is because the Congress passed a Federal law 
to provide for it. The local government does not have the 
authority to provide for that.
    Now, the contrast here with Guam, like your Governorship, 
is governed by organic legislation. We are not. In fact, our 
Governor--Office of the Governors is governed by the 
secretarial order of the Secretary of the Interior. So there 
was no Federal legislation to provide for the elected Governor.
    However, the Delegate, the office of Delegate, is governed 
by Federal law, and this is the reason why I am proposing this 
bill to amend the Federal law because of the deficiencies 
contained in the current law, which the 2-week runoff election 
and the fact that at one time our local laws even stipulated 
that people in the military had to personally appear in the 
territory to register to vote, which was totally contrary to 
the Federal law that currently allows any person in the 
military stationed anywhere in the world to file an absentee 
ballot, whatever a claim of residency, whatever State or 
territory. So these are some of the things that we've tried to 
correct.
    Ms. Bordallo. But the primary election is part of your 
local government?
    Mr. Faleomavaega. The primary election, if it so chooses--
this bill authorizes the local government to provide local law 
with reference to primary election if it so chooses. Right now 
they are still debating over it. Right now they discussed the 
issue, and the latest reason for not having a primary election 
is they think it is too expensive; but the bill definitely does 
provide that at some future time, the local government can 
provide for local--I mean for primary elections if it so 
chooses. And this is what this bill provides.
    Ms. Bordallo. But the primary election that is in place now 
is part of your--
    Mr. Faleomavaega. We have no primary election.
    Ms. Bordallo. You have no primary--
    Mr. Faleomavaega. No primary elections. That is the problem 
we're having right now.
    Ms. Bordallo. But it can be reestablished if the local 
government sees fit?
    Mr. Faleomavaega. It can be established if the local 
government wants it.
    Ms. Bordallo. My second question would be, would 
establishing a primary election be a priority of the Government 
of American Samoa, do you think?
    Mr. Faleomavaega. I know that the issue of primary 
elections was--in fact it was--the proposed bill was held about 
two years ago. It did not pass, and the basic reason for their 
not wanting to get into the primary elections is they say it 
was too expensive.
    Ms. Bordallo. And that is the sentiment of the people 
still--
    Mr. Faleomavaega. Well, that is the feeling of the members 
of the Fono, I mean, the local legislature, that they did not 
want to pass local law to provide for primary elections because 
they think it is too expensive.
    Ms. Bordallo. Lieutenant Governor, I have one more 
question. Can you give the Committee a sense of how many 
students attend a university in the U.S. mainland, and do you 
know how many servicemen and women list American Samoa as their 
home of record? I just wanted to get some idea of how many 
people, you know, where absentee ballots would come in place.
    Mr. Sunia. As to the number of students, it is around 120, 
and this is a number that I had gotten from last year, being 
the government treasurer, when I was sending out checks to pay 
for their scholarship, education.
    As to the number of soldiers, I am sorry. I cannot give--
    Ms. Bordallo. Would you know that?
    Mr. Faleomavaega. Offhand, there has never been a literal 
active count of the number of soldiers or men and women in the 
military from American Samoa, but I would hazard a guess; I say 
relatively about 2,000 currently serve in the military. And 
interestingly enough, too, we have 5,000 veterans that live in 
the territory, and so this is basically my guess on the number 
of our active duty men and women in--
    Ms. Bordallo. And registered voters?
    Mr. Faleomavaega. No. This is the problem. A lot of them 
have never bothered to register.
    Ms. Bordallo. What is the number of registered voters?
    Mr. Faleomavaega. So far as I am aware, I think maybe only 
about 60 have been known to register to vote, and one of the 
reasons why there has been hardly any of the men and women in 
the military because that they were told years ago that they 
could not register--they cannot vote until they personally come 
to the territory to register, which to me is ridiculous.
    So if I were stationed out there in Bosnia or in Iraq, I 
have to physically come to register in American Samoa. That is 
the reason why the Congress passed this Federal Voting Rights 
Act for our military men and women, so they don't have to make 
any personal appearances to vote--I mean to register to vote.
    Ms. Bordallo. Mr. Chairman, if you would, I have one more 
question, the $64,000 question. How many NFL players in the 
United States from Samoa?
    Mr. Sunia. Well, I saw two last Monday night.
    Ms. Bordallo. That's good enough, Lieutenant Governor.
    Mr. Faleomavaega. If the gentlelady will yield, for a 
population of about 180,000, including those living in the U.S. 
and American Samoa, we have about 15 NFL players right now on 
the roster.
    Ms. Bordallo. That is quite a record. Thank you, Mr. 
Chairman.
    The Chairman. Mr. Grijalva.
    Mr. Grijalva. I have no questions.
    The Chairman. Mr. Udall?
    How many total registered voters are there in Samoa?
    Mr. Faleomavaega. My last reading, Mr. Chairman, is 
approximately 16,000.
    The Chairman. Sixteen thousand.
    Mr. Faleomavaega. Registered voters, that's correct.
    The Chairman. OK. Are there any further questions of the 
Lieutenant Governor?
    I think Mr. Faleomavaega has talked to me about this over 
the past several months about moving forward with this bill, 
and I do think this is something that the Committee seriously 
must give a serious look at in terms of scheduling, moving this 
bill, because I know it has presented itself as being a 
problem. We have had some people who have contacted the 
Committee in opposition to this, and I do think we need to look 
at what their opposition is, to see if there is some way of 
having some kind of a compromise position on that, because I am 
not exactly sure at this point what their opposition is, but I 
will work with Mr. Faleomavaega to try to satisfy that.
    Mr. Faleomavaega. Will the Chairman yield?
    The Chairman. Yes.
    Mr. Faleomavaega. I want to note also for the record that 
the original bill proposed that the--should this bill become 
enacted, that the first election by plurality be held at next 
year's election, and I felt that I wanted to change the year of 
the election to 2006 so that will dispel any notion by some of 
my critics who think that I am doing this for political 
advantage. And I'd like to note for the record, that this bill 
to me is more important than any election on my part, and I 
feel very bad that those who do oppose the bill, for the life 
of me, just can't seem to come through in understanding that 
this is really a tremendous disservice to our men and women in 
the military.
    And, again, I just want to offer that to the Committee, 
that there is absolutely no reason whatsoever, rhyme or reason, 
why this bill is to be opposed.
    Unfortunately, it has taken the color now that the local 
Republican Party has stated its opposition to this bill, but 
for the life of me I find it very difficult to even fathom to 
understand what their reasons for opposing the bill are.
    The Chairman. I appreciate the gentleman's willingness to 
work with the Committee on this. I do think this is important 
legislation that we need to move forward with. So I want to 
thank Lieutenant Governor, for your testimony; for the members, 
their questions.
    The members of the Committee may have additional questions 
for the witness, and we will ask you to respond to those in 
writing. They will be submitted to you in writing if any of the 
members have additional questions, and give you the opportunity 
to answer those in writing so that we can include those in the 
hearing record.
    The hearing record will be held open for those responses.
    The Chairman. If there are additional testimony, Mr. 
Faleomavaega mentioned that he had other information that he 
wanted to include. We will hold the hearing record open to give 
him the opportunity to have further testimony submitted.
    The Chairman. If there is no further business--
    Mr. Faleomavaega. Mr. Chairman, I just would--
    The Chairman. Mr. Faleomavaega.
    Mr. Faleomavaega [continuing]. Offer my appreciation again 
to you for your leadership and your initiative and interest in 
holding this hearing this afternoon, and I sincerely hope that 
this is the beginning of the process. I wanted to thank again 
our Lieutenant Governor for traveling all the way here to 
testify before the Committee, and certainly my colleagues and 
members of the Committee for their participation and assistance 
in the bill. And again, I thank you, Mr. Chairman, for your 
help in this.
    The Chairman. Well, I thank you, and I hope you at least 
are buying them dinner tonight.
    Mr. Sunia. Mr. Chairman?
    The Chairman. Yes, sir.
    Mr. Sunia. I just wanted to thank you, Mr. Chairman, and 
members of the honorable Committee for the opportunity to 
appear before you. It is a rare opportunity to be able to 
travel to Washington to appear before a congressional 
committee, and I don't mind the long flights. I think it is 
worth the few minutes that I get to sit here and be able to 
speak to an august body like yourselves, and especially I want 
to thank the honorable Member from Guam for the kind words of 
condolence.
    I want to say to the members of the Committee, it was made 
mention of a certain commodity from the territory, that I would 
instruct my staff back home to replenish this stock here that 
you continue to so desire. And I look forward to having you in 
American Samoa, Mr. Chairman, and if you should ever make that 
trip. Again, thank you very much. May God bless you, sir, and 
your Committee. God bless the Congress of the United States. 
God bless America and God bless American Samoa.
    [Speaking in native language.]
    Mr. Faleomavaega. Mr. Chairman, I also would like to add 
for the record, by unanimous consent, a letter received from 
the President of the Senate supporting this proposed bill, a 
letter dated 27 October and signed by the President of the 
Senate, Lutu Tenari Fuimaono. I'd like to make that a part of 
the record.
    The Chairman. Without objection.

    [The letter submitted for the record by The Honorable Lutu 
Tenari Fuimaono, President of the Senate, follows:]
[GRAPHIC] [TIFF OMITTED] 90110.007


    Mr. Faleomavaega. Thank you.
    The Chairman. Again, I want to thank the members of the 
Committee, our witness for testifying today. I do believe this 
is an important issue that we will move forward on. I thank all 
of you for your participation in this hearing, and the hearing 
is adjourned.
    [Whereupon, at 3:50 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter submitted for the record by Amata Coleman 
Radewagen, National Committeewoman for American Samoa, 
follows:]
[GRAPHIC] [TIFF OMITTED] 90110.001

[GRAPHIC] [TIFF OMITTED] 90110.002

[GRAPHIC] [TIFF OMITTED] 90110.003

                                   - 

</pre></body></html>
